<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


.                           
                           LEGISLATIVE BRANCH APPROPRIATIONS
                                      FOR 2016 

                                      
                                      
                                      
                                      HEARINGS 

                                      
                                     BEFORE THE 
                                     
                            COMMITTEE ON APPROPRIATIONS
                            
                               HOUSE OF REPRESENTATIVES

                               

                           ONE HUNDRED FOURTEENTH CONGRESS
                           
                                     FIRST SESSION 

                                     

                            SUBCOMMITTEE ON LEGISLATIVE BRANCH 
                            
                            
                          TOM GRAVES, Georgia, Chairman 

MARK E. AMODEI, Nevad             DEBBIE WASSERMAN SCHULTZ, Florida  
E. SCOTT RIGELL, Virginia         SAM FARR, California  
EVAN H. JENKINS, West Virginia    BETTY McCOLLUM, Minnesota  
STEVEN M. PALAZZO, Mississippi  

NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full Committee, 
and Mrs. Lowey, as Ranking Minority Member of the Full Committee, are authorized
to sit as Membe s of all Subcommittees.



                              ELIZABETH C. DAWSON, Clerk
                              
                            JENNIFER PANONE, Professional Staff
                            
                            CHUCK TURNER, Professional Staff 

                                       ____________
                                       
                                         PART 2 

                         FISCAL YEAR 2016 LEGISLATIVE BRANCH
                         
                                APPROPRIATIONS REQUESTS 


Printed for the use of the Committee on Appropriations 

[NO TEXT AVAILABLE]
</pre></body></html>
